Report No. DODIG-2013-015      November 13, 2012




       Actions to Align Defense Contract
       Management Agency and Defense
       Contract Audit Agency Functions
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760, (DSN 664-8760), or by fax
(571) 372-7454, by email APO@dodig.mil, or by mail:

               Department of Defense Office of Inspector General
               Office of the Assistant Inspector General for Audit Policy and Oversight
               ATTN: Oversight Suggestions/11B27-03
               4800 Mark Center Drive
               Alexandria, VA 22350-1500




Acronyms and Abbreviations
DoD                                   Department of Defense
USD(AT&L)                             Under Secretary of Defense for Acquisition,
                                      Technology, and Logistics
USD(C)/CFO                            Under Secretary of Defense, Comptroller and Chief
                                      Financial Officer
DPAP                                  Office of Defense Procurement and Acquisition
                                      Policy
DP                                    Office of Defense Pricing
DCAA                                  Defense Contract Audit Agency
DCMA                                  Defense Contract Management Agency
GAO                                   Government Accountability Office
DBB                                   Defense Business Board
FAR                                   Federal Acquisition Regulation
DFARS                                 Defense Federal Acquisition Regulation
                                      Supplement
PGI                                   Procedures Guidance and Instructions
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGI NIA 22350-1500




                                                                    November 13, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE,
              : COMPTROLLER/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE PRICING
               DIRECTOR, DEFENSE PROCUREMENT AND
                ACQUISITION POLICY
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                AGENCY

SUBJECT: Actions to Align Defense Contract Management Agency and Defense
         Contract Audit.Agency Functions (Report No. DODIG-2013-015)

We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the fmal report.

DOD Directive 7650.3 requires that recommendations be resolved promptly. Comments
provided by the Defense Contract Audit Agency were pattiaily responsive. Please
reconsider your response to Recommendation A.l, including your response to Finding A.
Comments provided jointly by the Office of Defense Procurement and Acquisition Policy
and the Office of Defense Pricing were partially responsive. Please reconsider your
responses to Recommendations A.2 and A.3, including your response to Finding A.
Therefore, we request additional comments on Recommendations A.l., A.2., and A.3 by
December 13, 2012.

If possible, send an Adobe Acrobat pdf file containing your comments to either email
address provided below. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature.

We appreciate the comtesies extended to the staff. Please direct questions to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), Carolyn.Davis@dodig.mil or



    .                    #7 ?S6
Ms. Meredith Long-Marin at (703) 604-8739, Meredith .Long-Morin@dodig.mil.




                                  Randolph R. Stone
                               Deputy Inspector General
                                 Policy and Oversight
Report No. DODIG-2013-015 (Project No. D2011-DIP0AI-0103.000)                 November 13, 2012


               Results in Brief: Actions to Align Defense
               Contract Management Agency and Defense
               Contract Audit Agency Functions
                                                    Department and taxpayer resources to DCMA to
What We Did                                         perform a job DCMA was not prepared to
We evaluated actions taken by Department of         perform when DCAA had existing infrastructure
Defense (DoD) officials to align the Defense        in place to get the job the done.
Contract Management Agency (DCMA) and the
Defense Contract Audit Agency (DCAA)                What We Recommend
functions by increasing the dollar thresholds a     We recommend 1) DCAA implement a risk-
contractor proposal must meet before a              based audit planning process based upon
contracting officer can request a DCAA audit.       achieving higher rates of return to the taxpayer
We evaluated the factors DoD officials              and other high risk factors (Finding A). We
considered in making the decision as well as        recommend 2) DPAP re-instate the pre-
controls established to ensure the change in        September 17, 2010 thresholds for requesting
dollar thresholds adequately protects the           DCAA audit as soon as practical until such time
interests of the Department and taxpayer.           as a business case analysis can support a policy
                                                    change. (Finding A). We recommend 3)
What We Found                                       Defense Pricing reassess the decision to revise
The Office of Defense Procurement and               DoD procurement and acquisition policy and
Acquisition Policy (DPAP) did not perform a         validate that the decision sufficiently considers
business case analysis to support the decision to   the potential return to DoD and the taxpayers
revise Defense Federal Acquisition Regulation       resulting for DCAA audits and other factors
Supplement (DFARS) Procedures Guidance and          (Finding A). We recommend 4) Defense
Instructions (PGI) 215.404-2(c). The decision       Contract Management Agency proceed with
will cost the Department and taxpayers              scheduled corrective actions regarding case file
$249.1 million per year in lost potential return    documentation (Finding B) and information
on investment from DCAA contract audits. Had        system reliability (Finding C).
DPAP evaluated rates of return across the
DCAA audit portfolio, DPAP could have               Management Comments and
achieved the same results by redirecting DCAA       Our Responses
resources from low-risk audits and services to      DCAA concurred in principle to one
higher risk areas of the portfolio. We found that   recommendation. DPAP and DP provided a
DCAA had not implemented a risk-based audit         joint response and partially concurred to two
planning process as recommended by the              recommendations. DCMA concurred to all four
Defense Business Board. We found that DCMA          recommendations. We request that DCAA
is not prepared to perform contract cost analysis   reconsider their response to Finding A and
in place of a DCAA audit and that DCMA              Recommendation A.1. We request that DPAP
cannot reliably report performance. We found        and DP reconsider their responses to Finding A
that DPAP did not demonstrate that DCMA has         and Recommendations A.2 and A.3. We
a probable chance to replicate the $249.1           request additional comments by
million in potential return on investment           December 13, 2012.
identified by DCAA. We found that DPAP did
not demonstrate why they chose to direct
Report No. DODIG-2013-015 (Project No. D2011-DIP0AI-0103.000)             November 13, 2012



Recommendations Table

          Management                        Recommendations       No Additional Comments
                                           Requiring Comment             Required

Director, Defense Contract Audit
                                    A.1.
Agency

Director, Defense Procurement and
                                    A.2.
Acquisition Policy

Director, Defense Pricing           A.3.

Director, Defense Contract
                                                                B.1, B.2, C.1, and C.2.
Management Agency

Please provide comments by December 13, 2012.
Table of Contents

Introduction
      Objectives                                                                     1
      Background                                                                     1

Finding A. Lack of a business case analysis results in a potential $249.1 million
           loss to the Department and taxpayer                                       5
      Management Comments and Our Response                                           9
      Recommendations, Management Comments and Our Response                         14

Finding B. DCMA cost analysis case file documentation does not demonstrate
           readiness to assume cost analysis responsibilities                       17
      Management Comments and Our Response                                          19
      Recommendations, Management Comments and Our Response                         20

Finding C. DCMA Pricing & Negotiation eTool information system unreliable for
           reporting cost analysis performance                                      21
      Management Comments and Our Response                                          23
      Recommendations, Management Comments and Our Response                         23

Appendices

       A. Scope and Methodology                                                     25
             Prior Coverage                                                         26
       B. DoD OIG Checklist Evaluation, DCMA Case File Documentation                27
       C. DCAA questioned cost per audit hour across the audit portfolio, fiscal    36
          year 2009

Management Comments

       Defense Pricing and Defense Procurement and                                  37
       and Acquisition Policy Comments
       Defense Contract Audit Agency Comments                                       43
       Defense Contract Management Agency Comments                                  48
Introduction
Objectives
We performed an oversight review of actions taken by DPAP 1, a directorate reporting to
the Under Secretary of Defense, Acquisition, Technology and Logistics (USD(AT&L)),
to plan and implement a change to the DoD acquisition policy for evaluating low-dollar
contractor cost proposals submitted with cost or pricing data. Our objective was to
review factors leading to the functional changes between DCAA and DCMA. We
focused on the change in the thresholds for DoD contracting officer requests for DCAA
audit assistance when evaluating contractor price proposals to ensure that the interests of
the Department were adequately protected.

Background
On September 17, 2010, DPAP issued revised internal guidance to DoD contracting
officers. Paragraph (c) of DFARS PGI 215.404-2 Information to support proposal
analysis was revised as follows:

        (c) Audit assistance for prime contracts or subcontracts.
                  (i) The contracting officer should consider requesting audit
        assistance from DCAA for—

                        (A) Fixed-price proposals exceeding $10 million;
                        (B) Cost-type proposals exceeding $100 million.

                  (ii) The contracting officer should not request DCAA audit
        assistance for proposed contracts or modifications in an amount less than
        that specified in paragraph (c)(i) of this subsection unless there are
        exceptional circumstances explained in the request for audit. (See PGI
        215.404-2(a)(i) for requesting field pricing assistance without a DCAA
        audit.)

In lieu of a DCAA audit, the revised DoD guidance provides at DFARS PGI 215.404-
2(a) Field pricing assistance that the contracting officer should consider requesting field
pricing assistance, including cost analysis. DCMA 2 is tasked by DoD to provide field
pricing assistance to DoD contracting officers 3.


1
  DPAP is responsible for all contracting and procurement policy matters in DoD. DPAP executes policy
through the timely update of the DFARS, PGI, and DoD Directives 5000.1&2. In June of 2011 the Office
of Defense Pricing (DP) was established to complement DPAP. The Director of DPAP during the events
discussed in this report is now the Director of DP. Both the Director of DPAP and the Director of DP report
to the USD(AT&L). DP is responsible for contract pricing policy matters within the Department of
Defense (DoD). Additional information is available on the internet at http://www.acq.osd mil/dpap/.
2
  Additional information regarding DCMA is available on the internet at http://www.dcma.mil/.
3
  The Director of DCMA reports to the Assistant Secretary of Defense, Acquisition, who reports to the
USD(AT&L).


                                                    1
DoD Directive 5105.36, Subject: Defense Contract Audit Agency (DCAA) provides at
paragraph 3 Mission that:

         The DCAA, while serving the public interest as its primary customer, shall
         perform all necessary contract audits for the Department of Defense and
         provide accounting and financial advisory services regarding contracts and
         subcontracts to all DoD Components responsible for procurement and
         contract administration. These services shall be provided in connection with
         negotiation, administration, and settlement of contracts and subcontracts to
         ensure taxpayer dollars are spent on fair and reasonable contract prices.
         DCAA shall provide contract audit services to other Federal agencies, as
         appropriate.

Under paragraph 5, Responsibilities and Functions, DoD Directive 5105.36 provides that:

         The Director, DCAA, shall:

         a. Organize, direct, and manage DCAA and all assigned resources.

         b. Assist in achieving the objective of prudent contracting, by providing DoD
         officials responsible for procurement and contract administration with
         financial information and advice on proposed or existing contracts and
         contractors, as appropriate.

         c. Audit, examine, and/or review contractors’ and subcontractors’ accounts,
         records, documents, and other evidence; systems of internal control; and
         accounting, costing, and general business practices and procedures in
         accordance with Government Auditing Standards, the Federal Acquisition
         Regulation, the Defense Federal Acquisition Regulation Supplement, and
         other applicable laws and regulations…

         m. Report incidents of suspected fraud, waste, and abuse to the appropriate
         authorities.

DCAA audits came under increasing scrutiny after July, 2008 when the United States
Government Accountability Office (GAO) issued its report GAO-08-857, DCAA
AUDITS - Allegations That Certain Audits at Three Locations Did Not Meet Professional
Standards Were Substantiated. GAO reported finding numerous examples of where
DCAA had failed to comply with generally accepted government auditing standards
(GAGAS) 4, including three audits where contractor officials and the DoD contracting


4
  Government Auditing Standards provide standards for audits of government organizations, programs,
activities, and functions, and of government assistance received by contractors, nonprofit organizations,
and other nongovernment organizations. These standards, often referred to as generally accepted
government auditing standards (GAGAS), are to be followed by auditors and audit organizations when
required by law, regulation, agreement, contract, or policy. These standards pertain to auditors' professional


                                                      2
community had improperly influenced the audit scope, conclusions, and opinions – a
serious independence issue according to GAO.

In September 2009, the GAO issued report GAO-09-468, DCAA AUDITS – Widespread
Problems with Audit Quality Require Significant Reform. GAO reported finding DCAA
quality problems nationwide, including compromise of auditor independence, insufficient
audit testing and inadequate planning and supervision. GAO reported finding that the
DCAA management and quality assurance structures were based on a production-
oriented mission that put DCAA in a role of facilitating DoD contracting without also
protecting the public interest. GAO made 15 recommendations to the Secretary of
Defense to improve the quality of DCAA audits and strengthen auditor integrity,
objectivity, and independence. The GAO recommendations to DCAA included the
following:

         Consult with DoD stakeholders and engage outside experts to develop a
         risk-based audit approach that identifies resource requirements and
         focuses on performing quality audits that meet generally accepted
         government auditing standards (GAGAS).

         And

         In consultation with DOD stakeholders, review DCAA’s current portfolio
         of audit and nonaudit services to determine if any should be transferred or
         reassigned to another DOD agency or terminated in order for DCAA to
         comply with GAGAS integrity, objectivity, and independence
         requirements.

On August 19, 2008, following the first GAO report, the Deputy Secretary of Defense
established an Independent Review Panel under the Defense Business Board (DBB) to
review DCAA operations and make actionable recommendations for improvement.
Among the numerous recommendations to the Secretary of Defense, the Independent
Review Panel recommended 5:

         Secretary of Defense revise DCAA’s mission statement to identify the
         taxpayer as the primary customer and focus on core audit services that
         ensure taxpayer dollars are spent on fair and reasonable contract prices. 6

         And


qualifications, the quality of audit effort, and the characteristics of professional and meaningful audit
reports. It is DoD policy that DCAA perform contract audits in accordance with GAGAS.
5
  Defense Business Board Report FY09-1, dated October 2008 available on the internet at
http://dbb.defense.gov/pdf/Independent Review Panal Report of the Defense Contract Audit Agency
(Final Report).pdf.
6
  DCAA’s mission statement was changed to reflect the taxpayer as their primary customer in January
2010.


                                                       3
        DCAA Director establish a risk-based planning process that expands
        DCAA self-initiated contract audits resulting from risk assessments and
        increases the potential for identifying fraud, waste and abuse, and higher
        rates of return to the taxpayer. 7




7
  The Independent Review Panel recommendations on focusing on core audit services and on establishing a
risk-based planning process is open and DCAA considers implementation of these recommendations as an
on-going process.


                                                   4
Finding A. Lack of a business case analysis
results in a potential $249.1 million loss to
the Department and taxpayer
The Office of Defense Procurement and Acquisition Policy (DPAP) did not perform a
business case analysis to support the decision to revise DFARS PGI 215.404-2(c) Audit
assistance for prime contracts and subcontracts 8. A business case analysis would have
considered total risks to the Department, including the potential rates of return across the
DCAA audit portfolio. Such an analysis would have identified that the DCAA proposal
to increase the thresholds for requesting a DCAA audit will decrease the potential return
on investment to the Department and taxpayer. The DPAP decision to revise DFARS
PGI 215.404-2(c) halted DCAA audits of low dollar proposals and may result in a
potential loss of $249.1 million per annum in return on investment from such audits
(Table 3). DPAP performing a review could also have identified that DCMA was not
prepared to perform cost analysis of low-dollar proposals (Finding B), could not report
performance statistics related to their cost analysis (Finding C), and was not positioned to
replace the potential return on investment identified by DCAA prior to the revision to
DFARS PGI 215.404-2(c).

In early 2010, DCAA proposed that DPAP limit DoD contracting officer access to
DCAA proposal audits. DCAA proposed increasing the thresholds for contracting officer
requests for audit assistance identified in DFARS PGI 215.404-2(c) Audit assistance for
prime contracts and subcontracts to cost-type contractor proposals exceeding $100
million and fixed price contractor proposals exceeding $10 million. DCAA provided that
execution of this action would allow it to redirect 211,191 audit hours from the review of
low-dollar proposal audits to “higher-risk audits to the Department/Taxpayer (e.g. higher
dollar proposals and incurred cost submissions).”

However, the DCAA proposal did not demonstrate that eliminating low-dollar proposal
audits from the DCAA audit portfolio would increase the overall potential for achieving
higher rates of return to the Department and taxpayer, a Defense Business Board
recommendation. Additionally, in reviewing and approving the revision DPAP did not
(i) perform a cost/benefit analysis, (ii) determine a payback period, or (iii) determine a
potential return on investment that would result from the proposed change. The former
Director, DPAP advised the OIG that no formal business case analysis of the DCAA
proposal was performed or needed.



8
  DFARS PGI 215.404-2(c) provides DoD guidance for contracting officer use in requesting a DCAA audit
of a contractor sole-source proposal submitted with cost or pricing data. The revision changed the
‘threshold’ for requesting a DCAA audit on a contractor fixed-price proposal from $650,000 to $10 million
and on a contractor cost-type proposal from $10 million to $100 million. In lieu of a DCAA audit, a DoD
contracting officer can request field pricing support, including a DCMA cost analysis. The Background
section of this report provides additional information regarding DFARS PGI 215.404-2(c).



                                                    5
The former Director, DPAP advised the OIG that the decision to approve the revision to
DFARS PGI 215.404-2(c) was a ‘resources decision’. He reasoned that DCAA does not
have unlimited resources and the issue he confronted was how to reduce the number of
audits DCAA was performing. In making this decision, he indicated that he was looking
for ways to direct DCAA’s limited resources to what he considers DCAA’s most
important work: large dollar value contractor proposals, incurred cost audits relating to
the backlog of DoD contracts awaiting final close-out, and defective pricing audits. He
advised the OIG that senior procurement executives in the Department continue to seek
more timely responses from DCAA on contractor high-dollar proposal audits and that
contractors have voiced concerns about unpaid contract withholding fees caught up by
the DCAA backlog of incurred cost audits.

Table 1 summarizes the impact of the early 2010 DCAA proposal to DPAP:

Table 1. DCAA estimated reduction in audit activity, early 2010 proposal to revise
                          DFARS PGI 215.404-2(c)

                          Fixed Price             Cost-Type
                        Proposal Audits         Proposal Audits              Total
                       Under $10 million          Under $100                (Note)
                                                    million
Reports Issued                     1,614                      553                   2,167
Audit Hours                      147,374                   63,817                 211,191
Proposal Dollars
Examined                 $4,894,375,000          $11,619,255,000         $16,513,630,000
Questioned Cost            $380,341,000             $658,739,000          $1,039,080,000
Note –DCAA fiscal year 2009 activity.

Subsequent to the September 17, 2010 change to DFARS PGI 215.404-2(c) DCAA made
the decision to continue to audit certain below-threshold proposals. DCAA decided to
continue performing audits on under-threshold subcontract proposals where the
subcontract is included in an over-threshold prime contract proposal that DCAA is also
auditing. DCAA explained to the OIG that in order to be responsible for the audit of the
complete prime contract proposal, audits of low-dollar subcontract proposals included in
the prime contract proposal would continue. As illustrated in Table 2, adjusting the early
2010 DCAA proposal to DPAP for the impact of the DCAA decision to continue auditing
low dollar subcontract proposals reduces the estimated savings from 211,191 hours to
132,133 hours.




                                            6
    Table 2. DCAA early 2010 proposal adjusted for subcontract under-threshold
                proposal activity subsequently retained by DCAA

                               Fixed Price                    Cost-Type
                                Proposals                     Proposals                          Total
                             Under $10 million             Under $100 million                   (Note)
Reports Issued                           1,001                            371                           1,372
Audit Hours                             86,534                         45,599                         132,133
Total Proposal
Dollars Examined         $3,072,404,000                          $8,326,515,000            $11,398,919,000
Questioned Cost            $217,686,000                            $484,233,000               $701,919,000
Note – DCAA fiscal year 2009 activity.

Appendix C identifies DCAA questioned cost 9 per audit hour across the DCAA portfolio
in fiscal year 2009; the last full year DCAA performed low-dollar proposal audits. As
demonstrated in Appendix C, low-dollar proposal audits returned substantially more
questioned cost per audit hour (both fixed price, cost-type and combined) than other areas
in the DCAA audit portfolio, including incurred cost audits and defective pricing audits.

DCAA estimates its costs at $129 per audit hour in fiscal year 2009 10. The DCAA
questioned cost per audit hour on low-dollar proposal audits was $2,014 (Appendix C).
Reducing the questioned cost per audit hour by the estimated cost per audit hour, DCAA
was achieving a potential return on investment of $1,885 per audit hour when performing
low-dollar proposal audits.

To explain how DCAA ranked the different audits in its audit portfolio in terms of risk,
DCAA advised the OIG that:

         “No comparison or ranking was made to the dollars/audit hour per
         proposals compared to dollars/audit hour for other areas. We do not
         believe this comparison would be valid as there was limited audit work
         performed in these other areas in the recent years. In addition, we do not
         believe dollars exception to audit hours identifies the total risk to the
         Department.”

9
   DCAA defines questioned cost as those amounts on which audit action has been completed and which
are not considered acceptable as a contract cost. This category includes amounts for those items specifically
identified as unallowable under the contract terms, statute, public policy, applicable Government
regulations, or legal advice. It includes those items which, although not specifically unallowable, are
determined to be unreasonable in amount, contrary to generally accepted accounting principles, or not
properly allocable to the contract and those items for which the contractor denied access to supporting
records/data. DoD contracting officers are responsible for negotiating DCAA questioned costs and
adjusting DoD contract prices to reflect the resulting savings.
10
    The estimate considers DCAA payroll, travel, and support costs on readily identifiable audit activities
(i.e., proposal audits) as well as an estimate of the costs associated with non-readily identifiable activities,
such as certain types of audits, meetings, and planning and programming.


                                                       7
The Defense Business Board in its October 2008 Report FY09-1 Independent Review
Panel Report on the Defense Contract Audit Agency 11 recommended that DCAA:

        “Establish a risk-based planning process that expands DCAA self-initiated
        contract audits resulting from risk assessments and increases the potential
        for identifying fraud, waste and abuse, and higher rates of return to the
        taxpayer.”

The DCAA proposals to DPAP did not specifically address the recommendation by the
Defense Business Board to expand DCAA self-initiated contract audits and increase the
potential for higher rates of return to the taxpayer.

In order for DCAA to direct its resources to the audits that pose the highest risk to the
Department and have the potential for achieving higher rates of return to the taxpayer,
DCAA needed to identify and rank each audit area in the portfolio by some measure of
potential return per unit expended. For our analysis, we used questioned cost per audit
hour. Had DCAA performed a similar type of analysis and approach, DCAA could have
been in a position to begin implementing the DBB recommendation to achieve higher
rates of return for the Department and taxpayer.

Table 3 identifies the loss in potential return on investment to the Department and
taxpayer resulting from the decision by DPAP to revise DFARS PGI 215.404-2(c).

     Table 3. Loss in potential return on investment (ROI) caused by raising the
     thresholds for requesting a DCAA proposal audit, fiscal year 2009 baseline

                                            Audit Hours           Loss in
                                            Expended on          Potential           Loss in
                                            Low-Dollar           ROI Per            Potential
                                               audits           Audit Hour            ROI
DCAA proposal corrected for low-
dollar subcontract audits                           132,133            $1,885    $249,070,705




11
   Available on the internet at
http://dbb.defense.gov/pdf/Independent Review Panal Report of the Defense Contract Audit Agency
(Final Report).pdf


                                               8
DP, DPAP, DCMA, and DCAA Management Comments. DP and DPAP provide
in their response that they have reviewed the responses provided by DCMA and DCAA
and concur with their views. Similarly, DCAA provides in its response that DCAA
reviewed the draft responses provided by DP, DPAP and DCMA and agree with their
views.

DP and DPAP Management Comments. In a joint memorandum dated
July 10, 2012, DP and DPAP responded that they strongly object to the
mischaracterization of the risk based decisions made by DPAP in consultation with the
DCAA and DCMA to revise DFARS PGI 215.404-2(c) Audit assistance for prime
contracts and subcontracts. They state that the decision to raise the thresholds will result
in “billions of dollars in savings to the taxpayers” and that the decision recognizes the
need to limit the size of the DCAA workforce. DP and DPAP responded that the
statement made by the OIG that DPAP did not perform a business case analysis is
factually incorrect; they state that a business case analysis was done. DP and DPAP
provide that the business case analysis was “so compelling that is was obvious on its
face”.

DP and DPAP respond that the OIG statement is inaccurate in relation to the OIG finding
that DPAP did not consider that DCMA was (i) not prepared to perform cost analysis,
(ii) could not reliably report the results of performance, and (iii) was not positioned to
replace the $249.1 million potential return on investment achieved by DCAA. DP and
DPAP provide that since 2008 the Department has carried out a strategy to increase the
size and capability of the DCMA pricing workforce, including: reorganizing certain
administrative contracting officer positions into one organization; developing an
electronic tool to collect contractor business system information; establishing integrated
cost analysis teams to assist the DoD procuring contracting officers with evaluating
contractor proposals at the top DoD contractors; and, strengthening the pricing capability
at each DCMA contract management office. DP and DPAP provide that this capability,
though in its early stages, is “poised to assist contracting officers in savings billions of
dollars for the taxpayers.”

DP and DPAP question the OIG finding that there is a potential $249.1 million loss in
return on investment to the Department and taxpayer from this action. They state that
any “reasonable review of the numbers” presented by the OIG would support their
decision. They agree with the OIG calculation of a potential loss of $2,014 in questioned
costs per hour (Appendix C) and calculate a total loss of $266,109,300 in DCAA
questioned cost for all the low-dollar proposal work redirected to DCMA. However, they
propose that if only 10 percent of the 132,133 redirected audit hours (13,213 hours) are
directed to the audit of high dollar fixed price proposals, the potential cost questioned
jumps by $663,821,120, which is “more than double the entire potential reduction on the
low-dollar proposals.” They respond that the OIG report analysis is flawed in that it does
not consider the gains from alternate uses of the DCAA audit resources or give any
consideration to the results of DCMA reviews.




                                             9
DCAA Management Comments. In a memorandum dated July 3, 2012, DCAA
responded that it already has a risk-based audit planning process that directs its limited
resources to high risk areas and that this process already addresses the Defense Business
Board recommendations. DCAA responded that it disagrees with the substance of the
OIG findings for the following reasons:

   •   The audit resources saved by this change can be put towards higher priority work.
   •   The OIG model for ranking audit areas based on questioned cost per audit hour is
       too simplistic and does not consider the total risk to the Department.
   •   The potential $249.1 million loss in return on investment calculated by the OIG is
       overstated and does not consider:
           o The impact of DCMA’s cost/pricing efforts.
           o The audit savings resulting from applying the resources that would have
              been expended on under threshold proposals to higher priority work.
DCAA responded that when moving from under threshold audits to over threshold audits,
the rate of return as measured by questioned cost per hour increased by a factor of 8 for
cost-type audits and 27 for fixed price audits. DCAA provided that “while it is true that
under threshold audits still maintained a relative advantage in terms of cost questioned
per hour over other types of audits (e.g. incurred cost), the Agency believes it can make
better use of these resources.” DCAA provides that redirecting even a small portion of
the saved hours to over the threshold forward pricing reviews will provide the
Department and taxpayer with a greater return on investment.

IG Response. We find that in their responses, DP, DPAP, and DCAA do not directly
address the loss experienced by the Department and taxpayer that has resulted from
transferring the review of low-dollar contractor proposals from DCAA to DCMA.
Instead they emphasize the benefit to be derived through redirecting the audit hours once
spent on low-dollar proposal audits to high dollar proposal audits. For instance, DP and
DPAP calculate that if only ten percent of the hours once spent auditing low-dollar
proposals are redirected to high dollar fixed price proposal audits, the potential cost
questioned jumps by over $663.8 million. DCAA calculates that when moving resources
from under-threshold to over threshold audits, the rate of return as measured by
questioned cost per hour increased by factor of 8 for cost-type audits and 27 for fixed
price audits.

We agree that DCAA auditors make more money for the taxpayer by doing high-dollar,
over threshold proposal audits as the table in Appendix C clearly indicates. We also
agree that there are benefits achieved from moving auditors from one area of work to
another. However, a well-developed business case analysis would have determined the
most appropriate audit area(s) to target for redirected work.

We maintain that the low-dollar threshold work was not the best choice for redirected
work. In fiscal year 2009 when DCAA made its proposal to limit contracting officer
access to low-dollar proposal audits, DCAA performed four other areas of work where
questioned cost per audit hour is much lower and in three of the four audit areas, the
hours expended were much higher, as follows:


                                            10
  Table 4. Audit areas in the DCAA portfolio with lower questioned cost per hour
                 than low-dollar proposal audits, fiscal year 2009


                                   Audit Hours       Questioned        Questioned Cost
        Audit Area                  Expended            Cost           Per Audit Hour
   Special Audits                      561,158      $1,007,259,000               $1,795
   Defective Pricing                     58,582        $37,089,000                 $633
   Cost Accounting
   Standards                            238,380        $89,396,000                  $375
   Incurred Cost                      1,541,561       $302,854,000                  $196

With a cost of $129 per audit hour in fiscal year 2009, DCAA experienced the following
potential return on investment per audit hour for each of the four audit areas:

     Table 5. Audit areas in the DCAA portfolio with lower potential return on
     investment per audit hour than low-dollar proposal audits, fiscal year 2009

                                                                            Potential
                                    Questioned                             Return on
                                     Cost per        Cost per Audit      Investment per
        Audit Area                  Audit Hour           Hour              Audit Hour
   Special Audits                         $1,795               $129               $1,666
   Defective Pricing                        $633               $129                 $504
   Cost Accounting
   Standards                                $375                $129                $246
   Incurred Cost                            $196                $129                 $67

These rates are less (in three cases considerably less) than the $1,885 rate of potential
return on investment that DCAA was achieving in the audit area it chose to transfer to
DCMA: low-dollar proposal audits. The overall rate of return to the Department and
taxpayer could have been increased exponentially by redirecting the 132,133 saved hours
from these four audit areas rather than low-dollar proposals. As a simple illustration,
taking 132,133 hours proportionally from each of these four audit areas to fund the higher
risk work would have reduced the loss in potential return on investment to the
Department and taxpayer from $249.1 million to $62.0 million, as follows:




                                           11
 Table 6. Simple illustration demonstrating the reduced loss in potential return on
                            investment, fiscal year 2009

                                                        Potential            Loss in
                                                       Return on            Potential
                                    Audit Hour       Investment per         Return on
         Audit Area                 Reduction          Audit Hour          Investment
    Special Audits                        30,899             $1,666          $51,477,558
    Defective Pricing                      3,226               $504           $1,625,745
    Cost Accounting
    Standards                              13,126                $246          $3,228,960
    Incurred Cost                          84,883                 $67          $5,687,132
                                          132,133                             $62,019,396

DCAA Management Comments. DCAA responded that using questioned cost per
hour as the sole basis for allocating audit resources ignores areas of risk. DCAA
provided that certain audits are required by law or regulation DCAA identified its
incurred cost backlog which has quadrupled to $573 billion in the last 10 years as an
important area of risk. DCAA responded that postponing these incurred cost audits any
longer puts the Department at risk for canceling funds and may allow any overpayments
made to contractors to go undetected. DCAA also responded that it must perform
defective pricing audits before the statute of limitations runs out. DCAA identified
Overseas Contingency Operations as an area of high risk to the Department, stating that
many of these audits result in low payback but that these audits are needed to ensure the
contractor is operating efficiently and the U.S. Government is not reimbursing
unallowable costs. DCAA provided that it is monitoring the percentage of questioned
cost to dollars examined and that this percentage has increased from just over 2 percent in
2001 to more just over 9 percent in fiscal year 2011.

IG Response. With respect to the $573 billion DCAA incurred cost backlog and the
risk from canceling funds, we note that DCAA advised the OIG during the review that
cancelling funds do not prevent the Department from recovering questioned cost that
result from a DCAA incurred cost audit. The impact from cancelled funds is budgetary –
where contract costs that are recovered by the Department as a result of a DCAA incurred
cost audit have been cancelled, the funds are returned to the U.S. Treasury. We also note
that the potential return on investment to the Department and taxpayer from DCAA
incurred cost audits is minimal; $67 per audit hour as demonstrated above. We continue
to recommend that DCAA use a risk-based audit planning process in relation to their
entire portfolio, including the $573 billion incurred cost backlog.

DCAA Management Comments. Regarding the OIG estimate of $249.1 million in
potential return on investment that may have been lost when DPAP revised the
thresholds, DCAA responded that this amount is significantly overstated. According to
DCAA, contracting officers do not always sustain DCAA questioned cost and not every
proposal that DCAA audits results in a contract award. DCAA provided that the average


                                            12
net savings rate for audits of fixed price contracts for the fiscal years 2009 through 2011
is approximately 41.8 percent. DCAA responded that “using essentially the same DoDIG
methodology, combined with this average net savings rate, yields a much more modest
potential loss of $122.4 million.”

IG Response. We find that the alternative measure of ‘net savings’ that DCAA used to
calculate a “much more modest” potential loss of $122.4 million to the taxpayer is as a
good measure of contracting officer performance in settling DCAA questioned costs as it
is a measure of DCAA performance. DCAA in its response stated that contracting
officers have sustained an average of 41.8 percent of DCAA questioned cost during the
fiscal period 2009 through 2011, which indicates that in contract negotiations contracting
officers are sustaining just over $4 for every $10 in DCAA questioned cost. DCAA did
not indicate whether it considers a 41.8 percent sustention rate as a good indicator of the
viability of its reported questioned cost. This area will be considered for future study.

DP and DPAP Management Comments. DP and DPAP conclude their
July 10, 2012 joint response by stating that the change in the audit threshold is not the
only change in DCAA priorities or the requirements for DCAA audits. They state there
will be other changes made to make better use of DCAA resources in support of
contractor business system reviews and incurred cost audits.

DCAA Management Comments. DCAA responded that “lastly, and most
importantly, the DoDIG has completely ignored the audit savings that are generated by
applying the resources to higher priority work rather than under threshold proposals.”

IG Response. We demonstrated the varying rates of questioned cost per audit hour that
DCAA experienced across the audit portfolio in fiscal year 2009 (Appendix C) and
identified that low-dollar proposal audits returned substantially more questioned cost per
audit hour than other areas in the DCAA audit portfolio.

In their responses, DP, DPAP and DCMA did not address with empirical data the
potential rate of return achieved by DCMA since September 17, 2010. Similarly, they
did not identify a timeframe when they expect DCMA to start achieving the rates of
return previously achieved by DCAA. Until DP, DPAP and DCMA can demonstrate that
DCMA can achieve a potential rate of return equal to that once achieved by DCAA, we
stand by our finding that the decision to revise DFARS PGI 215.404-2(c) may result in a
potential loss of $249.1 million per annum in return on investment to the Department and
the taxpayer.

A judicious re-direction of resources, using a risk-based analysis of DCAA's entire
portfolio, including nonaudit services, as recommended by the GAO and Defense
Business Board Recommendations, would have better supported the rationale for
redirecting DCAA resources. A well-documented portfolio risk assessment would have
factored in potential for identification of fraud, waste and abuse and higher rates of return
to the taxpayer. In addition, it would have allowed for additional considerations, such as
preparing the organization receiving the redirected work to properly absorb and train staff



                                             13
for the additional responsibility and ensuring the receiving organization was in a position
to appropriately track the results, comparing their effectiveness in achieving results to
those achieved by DCAA (e.g., sustained questioned costs).

Lastly, we find that DP and DPAP did not demonstrate why they chose to direct
Department and taxpayer resources to DCMA to perform a job DCMA was not prepared
to perform when DCAA had the existing infrastructure in place to get the job the done. A
formal business case analysis could have identified that it was advantageous and more
economical to direct any increase in DoD resources to the organization that already had
the existing infrastructure to adequately perform proposal evaluations and track the
questioned costs.

Recommendations, Management Comment,
and Our Response
Recommendation A
We recommend that:

1. The Director, Defense Contract Audit Agency, beginning with the fiscal year
   2013 audit planning cycle, implement a risk-based audit planning process that
   directs limited DCAA audit resources to high risk audit areas based upon:

         i.     Achieving higher rates of return to the taxpayer,
         ii.    The potential for identifying fraud, waste and abuse,
         iii.   The potential for identifying Federal Acquisition Regulation and Cost
                Accounting Standard violations, and
         iv.    The need to serve the public interests as the primary DCAA customer.
Management Comments. DCAA concurs in principle. DCAA stated it already has a
planning process that addresses the DBB recommendation.

Our Response. We did not find that DCAA had implemented a risk-based audit
planning process as recommended by the DBB when it proposed revising the PGI to limit
DoD contracting officer access to DCAA audits. We continue to recommend that DCAA
implement a risk-based audit planning process that directs limited DCAA audit resources
to high risk audit areas. We strongly encourage that DCAA use a risk-based audit
planning process as recommended by the DBB as its basis for any future proposals to
restrict DCAA audits, including DCAA incurred cost audits. Across the board
limitations, such as the revision to DFARS PGI 215.404-2(c) that dissuade contracting
officers from requesting audits contained in DCAA’s risk-based audit portfolio, should be
avoided. DCAA should have the flexibility to direct available resources to any high-risk
contractor submission (whether a proposal or incurred cost audit) that increases the
potential for identifying fraud, waste and abuse and higher rates of return. We request



                                            14
that DCAA reconsider its response to this recommendation and provide additional
comments by December 13, 2012.

2. The Director, Defense Procurement and Acquisition Policy reinstate the pre-
   September 17, 2010 thresholds for requesting DCAA audit identified at DFARS
   PGI 215.404-2(c) Audit assistance for prime contracts or subcontracts until such
   time as a business case analysis can support that any change to DoD
   procurement and acquisition policy will protect the interests of the Department
   and taxpayer.
Management Comments. DP and DPAP partially concur but state that the merit of
the change was obvious. They respond that they will continue to monitor the results of
the decisions made and, if the facts merit a change in policy, they will modify the present
PGI as appropriate. They also respond that the OIG analysis is flawed in that it does not
address the alternate uses of the DCAA resources or give any consideration to the results
of DCMA pricing reviews.

Our Response. We recommend that DPAP re-instate the pre-September 17, 2010
thresholds for requesting DCAA audit identified at DFARS PGI 215.404-2(c) Audit
assistance for prime contracts or subcontracts as soon as practical. The revision to the
PGI has resulted in a $249.1 million per year potential loss of return on investment to the
Department and taxpayer. Once the prior thresholds are re-instated, DPAP should avoid
approving any future requests to increase the thresholds at DFARS PGI 215.404-2(c)
until such time as it can be demonstrated that any proposed change will increase the
overall potential for achieving higher rates of return to the Department and taxpayer.

DP and DPAP have not sufficiently explained the choice to direct Department and
taxpayer resources to DCMA to perform a job DCMA was not prepared to perform when
DCAA had the existing infrastructure in place to get the job the done. We request that
DPAP reconsider its response to this recommendation and provide additional comments
by December 13, 2012.

3. The Director, Defense Pricing reassess the decision to revise DFARS PGI
   215.404-2(c) Audit assistance for prime contracts or subcontracts and validate that
   the decision sufficiently considers:

         i.     the potential return to the Department and taxpayer resulting from
                DCAA audits,
         ii.    DCMA capability to sufficiently perform and adequately document
                the work, and
         iii.   DCMA capability to reliably report performance and results.

Management Comments. DPAP and DP partially concur stating they will continue
to analyze the use of the Department’s scarce resources to find the best utilization for the
benefit of the Department and taxpayer. They nonconcur that the Department or taxpayer
were exposed to potential losses or that there was not an adequate analysis done to
support the decision to increase the thresholds at DFARS PGI 215.404-2(c). They state


                                            15
that given the resource constraints and the data on similarly sized proposals, the decision
made was reasonable.

Our Response. DPAP and DP have not provided any additional factual support to
demonstrate how the Sept. 17, 2010 decision to revise DFARS PGI 215.404-2(c)
sufficiently considered (i) the potential return to the Department and taxpayer resulting
from DCAA audits, (ii) DCMA capability to sufficiently perform and document their
work, and (iii) DCMA capability to reliably report performance and results. We request
that DP reconsider its response to this recommendation and provide additional comments
by December 13, 2012.




                                            16
Finding B. DCMA cost analysis case file
documentation does not demonstrate
readiness to assume cost analysis
responsibilities
DCMA cost analysis case file documentation does not demonstrate that the DCMA cost
analysts performed work sufficient to determine a contractor’s proposed cost and fee
represent a fair and reasonable price, as required by FAR 15.404-1(a)(3) 12. Without
adequate case file documentation, the Department cannot demonstrate that a DCMA cost
analysis protects the taxpayer from paying unreasonable prices on contractor low-dollar
sole-source proposals submitted with cost or pricing data. In fiscal year 2009, the last
full year DCAA audited these low-dollar proposals, DCAA performed 1,372 audits,
examined almost $11.4 billion in contractor proposed cost and questioned approximately
$702 million 13.

DPAP did not act to ensure the Defense Contract Management Agency had existing
infrastructure in place to adequately document the work that DCMA performed in lieu of
a DCAA audit. DPAP had been working with DCMA to create a world-class pricing
organization and believed DCMA was in a position to adequately perform the additional
contracting officer requests for cost analysis that resulted from the revision to DFARS
PGI 215.404-2(c) Audit assistance for prime contracts and subcontracts. DPAP
expected that DCMA findings in terms of questioned cost and savings would equal that
attained by DCAA prior to the change, and exceed it with time. DPAP stated that
transferring low dollar contractor proposal evaluations from audit to cost analysis did not
create duplicate capabilities or overlap at DCAA and DCMA. Since 2009 DCMA has
been building an integrated capability (engineers, quality assurance representatives,
price/cost analysts, etc) for evaluating all aspects of a contractor’s proposal.

We evaluated the case file documentation supporting the cost analysis 14 performed by
DCMA at three of its Contract Management Offices (CMO). We used (i) DCMA
Instruction Folder Number: 22 Pricing and Negotiation –Contract’ 15 and (ii) the


12
   The objective of proposal analysis is to ensure that the final agreed-to price is fair and reasonable. FAR
15.404-1(a)(3) provides that “Cost analysis shall be used to evaluate the reasonableness of individual cost
elements when certified cost or pricing data are required. Price analysis should be used to verify that the
overall price offered is fair and reasonable.”
13
   Amounts exclude low dollar subcontract cost proposals that DCAA announced subsequent to the change
in DFARS PGI 215.404-2(c) that it will continue to audit.
14
   FAR 15.404-1(c)(1) provides that “Cost analysis is the review and evaluation of any of the separate cost
elements and profit or fee in an offeror’s or contractor’s proposal as needed to determine a fair and
reasonable price or to determine cost realism, and the application of judgment to determine how well the
proposed costs represent what the cost of the contract should be, assuming reasonable economy and
efficiency.
15
   DCMA Instruction 22 includes policy on using some of the cost analysis techniques provided at FAR
15.404-1(c)(2), as well as policy directed at case management and reporting. It is available to DCMA
cost/price analysts on the DCMA public webpage at http://guidebook.dcma.mil/22/index.cfm.


                                                     17
procedures included in the Federal Acquisition Regulation System as our criteria.
DCMA Instruction Number 22 is the sole DCMA policy that included procedures for
performing cost analysis, as conveyed to us by DCMA. In addition to Instruction 22, the
DCMA cost/price analysts rely on the criteria provided in the FAR and information
obtained from training classes when performing cost analysis of contractor low dollar
proposals.

For the period Sept. 17, 2010 through March 31, 2011, the three DCMA CMOs had
performed cost analysis on 13 contractor proposals submitted with cost or pricing data.
The 13 contractor proposals were valued under the revised DFARS PGI 215.404-2(c) 16
thresholds for requesting audit assistance.

Based upon an objective checklist evaluation (Appendix B), we determined that in 13 of
13 cases the DCMA cost analysis case file documentation did not demonstrate
compliance with the Federal Acquisition Regulation or DCMA Instruction Folder
Number: 22 Pricing and Negotiation –Contracts. DCMA CMO management concurred
with our findings in almost all instances, as demonstrated in Table 7.

                               Table 7. Results of DCMA case file review



       OIG number of case files reviewed                                                     13
       Total number of checklist questions                                                  685
       Number of OIG findings, checklist responses where CMO                                425
       case file documentation did not demonstrate compliance
       with FAR or DCMA Instruction 22
       Number of CMO concurs, OIG findings                                                   423
       Number of CMO nonconcurs, OIG findings                                                 2
       Percentage, CMO concurs                                                             99.5%
       Percentage, CMO nonconcurs                                                           0.5%


For the 13 cases at these three DCMA CMOs, the existing cost analysis case file
documentation:

         •   Does not provide evidence that the work was performed.
         •   Does not demonstrate how the cost analyst applied the various cost analysis
             techniques provided at FAR 15.404-1(c)(2) to ensure the Government
             obtained a fair and reasonable price in a sole source noncompetitive
             acquisition where cost or pricing data was submitted by the contractor.


16
   Contractor cost proposals submitted with certified cost or pricing data and falling below $10 million for
fixed price proposals and $100 million for cost-type.


                                                     18
       •   Does not demonstrate the actions taken by the cost analyst to determine that
           the offeror submitted all current, accurate and complete cost or pricing data
           with its certified proposal in accordance with the Truth in Negotiations Act.
       •   Does not demonstrate the actions taken by the cost analyst to determine that
           the offeror complied with the cost principles included in FAR Part 31 when
           pricing contracts, subcontracts and modifications for negotiation.
       •   Does not demonstrate the actions taken by the cost analyst to determine that
           the offeror was subject to and/or complied with the rules and regulations
           issued by the Cost Accounting Standards Board.
Additionally, in 7 of the 13 cases where DCMA performed a technical evaluation in
conjunction with the cost analysis, the existing case file documentation did not
demonstrate the technical analysis complied with FAR 15.404-1(e)(2) Technical
Analysis.

On September 20, 2011, the OIG conveyed to DPAP the results of the OIG work to
evaluate DCMA cost analysis case file documentation and the results of the DCMA P&N
eTool described in Finding C.

In response to the OIG findings on DCMA case file documentation, on October 3, 2011
DPAP initiated the following actions:

       •   Perform a 100 percent compliance check of every DCMA office using the
           OIG developed checklist as the tool to evaluate CMO compliance.
       •   Establish policies and procedures to ensure all work performed by DCMA in a
           cost analysis is adequately documented in a case file and demonstrates
           compliance with the FAR.
       •   Hold periodic meetings with the OIG to provide real-time assessments and
           obtain OIG feedback.
On December 14, 2011, the Executive Director, Contracts, DCMA conveyed to the OIG
the status of actions taken in response to the OIG findings. DCMA had performed a
review of 15 additional CMO sites using the DoDIG checklist and the findings were
consistent with those found by the DoDIG. DCMA has initiated corrective action to
update the Pricing & Negotiation Instruction, standardize the cost analysis and technical
support case file and improve training. DCMA is taking action to develop an
organizational structure and mission statement for dedicated pricing and technical
support. In addition, DCMA stated that it is revising its internal review mechanism to
begin assessing cost analysis performance to ensure pricing across all CMOs is effective,
starting September 2012 with completion slated for May 2015.


Management Comments and Our Response. See Finding A, Management
Comments, and Finding A, Our Response, regarding those aspects of the joint DPAP and
DP response related to DCMA performance and any actions taken by DPAP to ensure
DCMA was positioned to replace the $249.1 million in potential return on investment



                                           19
achieved by DCAA prior to revising DFARS PGI 215.404-2(c) Audit assistance for
prime contracts and subcontracts.

Recommendations, Management Comments,
and Our Response
Recommendation B
We recommend that the Director, Defense Contract Management Agency:

1. Evaluate existing case file documentation created by price/cost analysts
   performing the nine other tasks identified in the DCMA price/cost analyst
   position description and ensure such documentation demonstrates the actions
   taken by the analyst demonstrate compliance with FAR, CAS and DCMA
   internal policies and procedures; and provide semiannual updates to the
   Assistant Inspector General, Audit Policy & Oversight, DoD, semi-annually until
   all corrective actions have been completed.

Management Comments. In the June 28, 2012 response, DCMA concurs with the
recommendation. DCMA will employ various measures including management reviews
to critically examine existing case file documentation and confirm such documentation
meets regulations, policies and procedures. DCMA will affirm that, overall, contract
price/cost analysts are performing all pertinent duties identified in the standard position
description. Additionally, the DCMA Mission Review Team will include the review of
case file documentation during its regularly scheduled reviews to ensure such
documentation demonstrates performance complied with laws and regulations. DCMA
will report the results to the DoDIG on a semiannual basis for the remainder of FY 2012
and FY 2013.

Our Response. We consider the DCMA management comments to be responsive to
our recommendation and will perform a follow-up review after all DCMA actions have
been implemented.

2. Proceed with the scheduled implementation of corrective actions relating to cost
   analysis case file documentation (3 items) identified in the December 14, 2011
   Updated DCMA Action Plan, DoD OIG Project No. D2011-DIP0AI-0103; and
   provide semiannual updates to the Assistant Inspector General, Audit Policy &
   Oversight, DoD, semi-annually until all corrective actions have been completed.

Management Comments. DCMA concurs with the recommendation and will report
semi-annually until the planned actions are complete.

Our Response. We consider the DCMA management comments to be responsive to
our recommendation and will perform a follow-up review after all DCMA actions have
been implemented.


                                            20
Finding C. DCMA Pricing & Negotiation
eTool information system unreliable for
reporting cost analysis performance
Data derived from the P&N eTool, the DCMA information system used to report
performance on pricing and negotiation cases, is not sufficiently reliable to report the
number of within threshold cost analysis cases completed, the total proposal amount
analyzed and the total cost questioned. The data derived from the DCMA P&N eTool is
too unreliable for this purpose and would probably lead to an incorrect or unintentional
message.

We evaluated and found the following P&N eTool deficiencies. DCMA management is
not able to track and report DCMA performance on cost analysis cases performed on
low-dollar contractor proposals submitted with cost or pricing data.

       •   Field services requested are not tracked at a level of detail
           identified in the FAR and provided by DCMA. Without providing
           P&N eTool definitions on services requested that matches the differing types
           of pricing assistance identified in the FAR, P&N eTool is unable to track and
           measure performance by DCMA when providing each specific type of pricing
           assistance, including cost analysis performed on under threshold proposals
           submitted with cost or pricing data.

       •   Existence of discretionary input fields. Discretionary input fields are
           the primary driver behind inconsistency and lack of data within P&N eTool.
           Over 70 percent of discretionary fields in P&N eTools are blank compared
           with 3% of mandatory fields. This results in 36 percent of total fields
           remaining blank. Users are not receiving an accurate view of the performance
           on cost analysis cases because the application allows the case to be established
           and closed with missing information.

       •   No documented definition for all the input fields. The reference
           material available to the P&N eTool user does not provide definitions,
           descriptions, codes and values for all fields. Without definitions, etc., for the
           input fields it is left to over 5,000 users to use their best judgment for the type
           of input expected or to leave the field blank. Not making definitions and/or
           reference material available to guide a user in populating fields in any log
           (P&N eTool or External) is a major contributing factor to the inconsistency
           and lack of data within that log.




                                             21
        •   Limited data integrity control procedures. P&N eTool documentation
            does not include control procedures to:
               o ensure data input to the system accurately reflects the underlying
                   information;
               o provide reasonable assurance that erroneous data, errors and
                   irregularities are detected, reported, and corrected;
               o enable users of the data to have a chance to bring attention to incorrect
                   data or data that needs to be updated; or
               o consistently capture all pricing cases and data elements.

        •   Reporting strategy not consistent with user’s needs. P&N eTool
            supports four roles: External Customer role, Cost/Price analyst role, DCMA
            Headquarters role, and DCMA technical user role. Each user interacts with
            the P&N eTool differently and expects the reports to meet their needs. Five
            standard reports available to each user do not include P&N Case Number,
            contractor, contract type, or any of the text box fields within the P&N eTool.
            Inability to run a report to meet a user’s needs due to missing fields, missing
            data and lack of consistency are factors that encourage the use of external
            logs.

Additionally, an alternate estimate of cost analysis activity provided by DCMA
management to the OIG was derived from P&N eTools and/or stand-alone computer
systems. The alternate estimate suffered from the same deficiencies identified with P&N
eTool and was unreliable for use in reporting DCMA activity and performance.

DPAP did not identify that the DCMA information system cannot reliably report the
number of cost analysis cases performed, the dollar value of contractor proposals
analyzed, and the questioned cost reported since DFARS PGI 215.404-2(c) Audit
assistance for prime contracts and subcontracts was revised on September 17, 2010.
Without reliable information, the Department cannot demonstrate to the taxpayer that the
decision to replace DCAA audits with DCMA cost analysis will replicate the potential
rates of return previously achieved by DCAA (see Finding A).

DCMA cannot reliably report the number of cost analysis cases performed, the dollar
value of contractor proposals analyzed, and the questioned cost reported since DPAP
revised DFARS PGI 215.404-2(c) Audit assistance for prime contracts and subcontracts.
Without reliable information, the Department cannot demonstrate to the taxpayer that the
decision by DPAP to replace DCAA audits with DCMA cost analysis had a positive
impact on the Department’s potential rate of return. In fiscal year 2009, the last full year
DCAA audited these low-dollar proposals, DCAA performed 1,372 audits, examined
almost $11.4 billion in contractor proposed cost and questioned approximately
$702 million 17.



17
   Figures exclude low dollar subcontract cost proposals that DCAA announced subsequent to the change
in DFARS PGI 215.404-2(c)it will continue to audit.


                                                  22
In response to the OIG findings regarding eTools deficiencies, on December 14, 2011,
the Executive Director, Contracts, DCMA conveyed to the OIG the status of actions
taken in response to the OIG findings. DCMA has initiated corrective action to reassess
the P&N eTool, including its manuals, training and reports. In conjunction with that
reassessment, the DCMA internal review team will revise its assessment methodology to
include an assessment of data integrity of the P&N eTool. Both actions are scheduled for
completion by November, 2012.


Management Comments and Our Response. See Finding A, Management
Comments, and Finding A, Our Response, regarding those aspects of the joint DPAP and
DP response related to DCMA performance and any actions taken by DPAP to ensure
DCMA was positioned to replace the $249.1 million in potential return on investment
achieved by DCAA prior to revising DFARS PGI 215.404-2(c) Audit assistance for
prime contracts and subcontracts.

Recommendations, Management Comments,
and Our Response
Recommendation C.
We recommend that the Director, Defense Contract Management Agency:

1. By Sept. 30, 2012, provide an update on their evaluation of the eTool P&N to
   determine that the tool can reliably report all activity performed by the DCMA
   price/cost analyst as identified in the DCMA price/cost analyst position
   description and take action to correct the tool for identified deficiencies; and
   provide semiannual updates to the Assistant Inspector General, Audit Policy &
   Oversight, DoD semi-annually until all corrective actions have been completed.
Management Comments. DCMA concurs with the recommendation and will report
semi-annually until the P&N eTool is re-designed.

Our Response. We consider the DCMA management comments to be responsive to
our recommendation.

2. Proceed with the scheduled implementation of corrective actions relating to
   eTool Price & Negotiation (8 items) identified in the December 14, 2011 Updated
   DCMA Action Plan, DoD OIG Project No. D2011-DIP0AI-0103; and provide
   semiannual updates to the Assistant Inspector General, Audit Policy &
   Oversight, DoD semi-annually until all corrective actions have been completed.
Management Comments. DCMA concurs with the recommendation and will report
semi-annually until the P&N eTool is re-designed.




                                          23
Our Response. We consider the DCMA management comments to be responsive to
our recommendation.




                                     24
Appendix A. Scope and Methodology
We conducted this review from December 3, 2010 through February 21, 2012 in
accordance with the Quality Standards for Inspection and Evaluation. Those standards
require that we plan and perform the review to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings, conclusions and recommendations based on
our review objectives. We believe that the evidence obtained provides a reasonable basis
for our findings, conclusions and recommendations based on our review. As part of our
review, we:

   •   Reviewed GAO and DBB findings and recommendations regarding DCAA audit
       planning practices and compliance with GAGAS.
   •   Evaluated the DCAA planning process related to its proposal to restrict low-dollar
       proposal audits.
   •   Evaluated DCMA cost analysis procedures and case file documentation.
   •   Evaluated the DCMA computer system to determine if it could be used to reliably
       report cost analysis activity.
   •   Interviewed acquisition officials to understand and evaluate any costs and benefits
       associated with changing DFARS PGI 215.404-2(c).

Use of Computer-Processed Data
Computer-processed data includes data entered into a computer system or resulting from
computer processing. DCMA maintains an electronic tool (eTool) for tracking pricing
and negotiation actions. The Pricing and Negotiation eTool is the required method for
receiving, tracking, and closing requests for support. We believed that data from this
system would have materially supported our findings, conclusions, or recommendations.
Specifically being able to reliably report the number of within threshold cost analysis
cases created and completed (including associated total proposed cost and total cost
savings) by DCMA between September 17, 2010 and March 31, 2011. In accordance
with Quality Standards for Inspection and Evaluation we assessed the sufficiency and
appropriateness of the computer-processed information. We used GAO-09-680G,
"Applied Research and Methods: Assessing the Reliability of Computer-Processed Data,"
July 2009, as a framework when designing the data reliability assessment.

To determine if we could use data provided by the DCMA P&N eTool to reliably report
elements of DCMA cost analysis performance, we performed electronic testing of
required data elements, reviewed related documentation, and interviewed agency officials
knowledgeable about the data. The results of our electronic testing identified significant
errors or incompleteness in some of or all the key data elements and that using the data
would probably lead to an incorrect or unintentional message, given the intended use of
the data (see Finding D for further details). We determined that the data produced from
the DCMA Pricing and Negotiation eTool is not sufficiently reliable. We ultimately
determined that an alternate means of estimating would not provide us with reliable data.
Therefore, we did not use the data from the Pricing and Negotiation eTool in our analysis
or include it in the report.


                                           25
Prior Coverage
No prior coverage has been conducted during the last 5 years related to the actions taken
by DoD officials to restrict DCAA audits of low-dollar contractor proposals, the
adequacy of DCMA field pricing support case file documentation and the ability of
DCMA to track and report performance on field pricing support performed in lieu of a
DCAA audit.




                                           26
Appendix B. DoD OIG Checklist Evaluation, DCMA Case File
Documentation




                                  27
  Appendix C: DCAA questioned cost per audit
  hour across the audit portfolio, fiscal year
  2009
                                                Audit            Questioned
                                                Hours                Cost             Questioned Cost
            Audit Area                        Expended              (Note)             Per Audit Hour
Forward Pricing - All                          1,150,756       $18,821,296,000                   $16,356
 Individual Proposal Audits –
   Over Proposed Thresholds
      Fixed Price Over $10M                      216,178       $10,860,775,000                        $50,240
      Cost-type Over $100M                        50,155          $279,283,400                         $5,568
   Under Proposed Thresholds,                    132,133          $266,109,300                         $2,014
     Combined
      Low Dollar Fixed Price                       86,534         $217,686,000                         $2,516
      Under $10M
      Low Dollar Cost-type                         45,599           $48,423,300                        $1,062
      Under $100M
 Other Forward Pricing Audit                     752,290        $7,415,128,300                         $9,857
   Activity

Other Areas of the Audit Portfolio:
   Operations Audits                              40,736          $157,098,000                         $3,856
   Special Audits                                561,158        $1,007,259,000                         $1,795
   Defective Pricing                              58,582           $37,089,000                           $633
   Cost Accounting Standards                     238,380           $89,396,000                           $375
   Incurred Cost                               1,541,561          $302,854,000                           $196

Note. Questioned cost on cost-type individual proposal audits has been factored down to represent the potential
impact that DCAA questioned costs may have on the negotiated contract fee (estimated at 10 percent)
established by the contracting officer. For example, questioned cost of $484,233,000 on cost-type proposals
under $100 million (Table 2) factored down to $48,423,300.




                                                      36
Director, Defense Pricing and Director, Defense
Procurement and Acquisition Policy Comments




                       37
38
39
40
41
42
Defense Contract Audit Agency Comments




                    43
44
45
46
47
Defense Contract Management Agency
Comments




                    48
49
50
51
52
53
54
55
56
